BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 21-113
DJ-EIGHTY CORPORATION,

Petitioner,
V.

CITY OF BLOOMINGTON BOARD OF ZONING APPEALS,

Respondent.
As required by Supreme Court Rule 33. l(h), I
certify that the Brief of Fraternity Forward Coalition
and Fraternal Housing Association as Amici Curiae
Supporting Petitioner contains 3,047 words, excluding
the parts of the Brief that are exempted by Supreme
Court Rule 33.l(d).
I declare under penalty of perJury that the
foregoing is true and correct.
Executed on August 26, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www. beckergal lag her.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affi.ant
on the date designated below.

Notary Public

v

[seal]

JOHN 0. GALLAGHER
r~otary Public, State of Ohio
My CofTlmission Expires
r ~ bri mry ·J ~ , 21.1,_,3

